                                                                           X-IN-MOA-0042-2004


               United States Department of the Interior
                                 Office of Inspector General
                                      Washington, D.C. 20240




                                                                                February 3, 2004

U.S. General Accounting Office
441 G. Street, NW Room 5970
Washington, DC 20548

Department of Treasury
Attn: Director, Financial Reports Division
Financial Management Services
Room 509B
3700 East-West Highway
Hyattsville, MD 20782

Dear Sir or Madam:

        Enclosed is the report for the Department of the Interior on “Applying Agreed-Upon
Procedures for Intragovernmental Activity and Balances.” This report is required by Office of
Management and Budget (OMB) Bulletin 01-02, Audit Requirements for Federal Financial
Statements. The report was prepared by KPMG LLP (KPMG) under contract with the
Department of the Interior, Office of Inspector General. The contract required that the audit be
performed in accordance with United States generally accepted government auditing standards,
OMB Bulletin 01-02 and the General Accounting Office /President’s Council on Integrity and
Efficiency Financial Audit Manual.

       KPMG is responsible for the report and for the conclusions expressed in the report.
If you have any questions concerning this matter, please contact me at (202) 208-5512 or Mr.
Curtis Crider, Director of Financial Audits, at (202) 208-5724.

                                             Sincerely,



                                             Roger La Rouche
                                             Assistant Inspector General
                                               for Audits
                2001 M Street NW
                Washington, DC 20036




              Independent Accountants’ Report on Applying Agreed-Upon Procedures
                          for Intragovernmental Activity and Balances


Office of Inspector General,
U.S. Department of the Interior

We have performed the procedures enumerated in Exhibit A (attached), which were stated in the U.S.
Department of the Treasury’s (Treasury) Federal Agencies’ Centralized Trial Balance System (FACTS)
guidance, dated August 5, 2003, solely to assist the U.S. Department of the Interior (Department) Office of
Inspector General (OIG) in evaluating the Department’s assertion that it properly reported
intragovernmental activity and balances in the Department’s consolidated financial statements as of and for
the year ended September 30, 2003, and in its FACTS I submission to Treasury. The Department’s
management is responsible for the proper accounting, presentation, and reporting of its consolidated
financial statements and reporting of information to Treasury.

This agreed-upon procedures engagement was conducted in accordance with attestation standards
established by the American Institute of Certified Public Accountants. These procedures were agreed to
by, and the sufficiency of these procedures is solely the responsibility of, the Office of Management and
Budget (OMB), the U.S. Treasury Financial Management Service (FMS), and the U.S. General Accounting
Office (GAO). Consequently, we make no representations regarding the sufficiency of the procedures
described in Exhibit A either for the purpose for which this report has been requested or for any other
purpose. The procedures we performed and our associated findings are presented in Exhibit A.

We were not engaged to, and did not, conduct an examination of the information addressed herein, the
objective of which would be the expression of an opinion on such information. Accordingly, we do not
express such an opinion. Had we performed additional procedures, other matters might have come to our
attention that would have been reported to you.

This report is intended solely for the information and use of the Department, OIG, OMB, FMS, and GAO,
and is not intended to be and should not be used by anyone other than these specified parties.




January 28, 2004




                KPMG LLP, a U.S. limited liability partnership, is the U.S.
                member firm of KPMG International, a Swiss cooperative.
                                                                                                                Exhibit A

                                           U.S. Department of the Interior
                                            Agreed-Upon Procedures for
                                          Intragovernmental Transactions



Procedures and Findings1
Procedure 1

Review the electronic file provided by the Department’s Chief Financial Officer (CFO) of the responses to the
intragovernmental reciprocal account categories of the CFO Representations for fiduciary and non-fiduciary
transactions, as described in the Treasury Financial Manual (TFM). For each “Yes” response, which indicates
that a reconciliation was performed, perform the following steps:

    1. Compare the amounts in such reconciliations to supporting documentation. Indicate if no differences
       were found. Obtain explanations in detail for any differences.

    2. Compare the adjustments, if any, identified in the reconciliation process that require recognition on the
       books of the reporting entity (rather than the books of the trading partner) to documentation supporting
       the recording of such amounts in the Department’s financial records. Indicate if no differences were
       found. Obtain explanations in detail for any differences.

Finding 1

We obtained the Department’s responses to the intragovernmental reciprocal account categories of the CFO
Representations for fiduciary and non-fiduciary transactions as described in the TFM. The “FYE ’03 CFO
Representations for Federal Intragovernmental Activity and Balances” indicated that the Department completed
the reconciliations for the fiduciary categories, but did not complete the reconciliations for the non-fiduciary
categories. In addition, we did not receive the fiduciary confirmations for Treasury Fund Symbols 14116029 –
Alaska Mineral Lease Revenue or 14176705 – OCS Lands Act, Bonus Bids. The Department explained that
Treasury assigned these reconciliations to other Federal entities.




1
 Where applicable, the procedures performed took into consideration that the consolidated financial statements and
footnotes were rounded.

                                                             2                                                 (Continued)
                                                                                                       Exhibit A

                                        U.S. Department of the Interior
                                         Agreed-Upon Procedures for
                                       Intragovernmental Transactions



For each “Yes” response for the fiduciary categories, we performed the following:

1.    Compared the Department’s balances on the reconciliations to the corresponding amounts in the
      Department’s September 30, 2003 general ledger, and identified the following differences:

                                                              Amount per the
                                            Amount per         Department's
      Fund Symbol       SGL Account        Reconciliation     General Ledger        Difference    Explanation
      14X4163000     6310F(20)                   782,944                     -          (782,944)      B
      14X5015000     5310F(20)                23,619,923            23,519,909          (100,014)      B
      14X5029        5310F(20)                 8,427,175             8,500,878            73,703       B
      14X5029        7110F(20)(Gain)             176,715                     -          (176,715)      B
      14X5029        7210F(20)(Loss)                  608                    -              (608)      B
      14X5174000     5310F(20)                 3,989,773             4,027,247            37,474       B
      14X519800      5310F(20)                 2,116,461             2,119,303             2,842       B
      14X5265000     1340F(20)                    77,788                77,432              (356)      A
      14X5265000     1610F / 1630F(20)        64,179,467            47,579,633      (16,599,834)       A
      14X5265000     1613F / 1633F(20)                   -              30,026            30,026       B
      14X5265000     5310F(20)                 1,840,346             1,172,666          (667,680)      A
      14X8030000     1340F(20)                      8,243                8,211               (32)      A
      14X8030000     1610F / 1630F(20)        29,738,013            28,336,303       (1,401,710)       A
      14X8030000     1613F / 1633F(20)                   -              15,207            15,207       B
      14X8030000     5310F(20)                   626,305               558,834           (67,471)      A
      20X8147        5310F(20)                40,949,458            36,068,556       (4,880,902)       B
      14X4415000     6310F(20)                   150,126             1,358,428        1,208,302        B
      14X4416000     6310F(20)                 1,613,161             1,695,588            82,427       B
      14X5240000     5310F(20)                   349,321               347,822            (1,499)      B
      14X5648000     5310F(20)                   504,419               502,559            (1,860)      B

      We communicated the differences noted above to the Department and requested explanations for the
      differences. We received the following explanations from the Department:

            A. The difference is a result of the Department excluding non-federal funds from the general ledger
               that the Department included in the reconciliation. These funds represent Indian and Special
               Trust Funds that are not assets of the Federal government and therefore are not part of the
               Department’s reporting entity.

            B. The Department indicated that they believe the difference is immaterial.

      No additional procedures were performed with respect to management’s explanations as to the reasons for
      the differences.

2.    No adjustments were recorded to the Department’s financial records as a result of the reconciliations.

                                                        3                                             (Continued)
                                                                                                        Exhibit A

                                        U.S. Department of the Interior
                                         Agreed-Upon Procedures for
                                       Intragovernmental Transactions



Procedure 2

Review the electronic file provided by the Department’s CFO of the responses to the CFO Representations for
intragovernmental activity and balances. For each “Yes” response, indicating that intragovernmental activity and
balances, excluding intradepartmental activity and balances, agree with the final amounts reported on FACTS I
and or FACTS I notes, perform the following step:

1.    Compare the amounts, excluding intradepartmental activity and balances, in the audited agency
      consolidated financial statements to such amounts in the agency’s final FACTS I and /or FACTS I Notes
      report. Indicate if no differences were found. Obtain explanations in detail for any differences.

Finding 2

We obtained the responses to the CFO Representations for intragovernmental activity and balances. The
Department’s CFO answered “Yes” in the FY 2003 CFO Representation to the 3 financial statement disclosure
questions, indicating that the Department’s reciprocal account balances and activity reconcile within 90% of the
trading partner amounts; that gross cost and earned revenue by budget functional classification were reported in
compliance with OMB Bulletin No. 01-09; and that intragovernmental activity and balances were disclosed as
Required Supplementary Stewardship Information in compliance with OMB Bulleting No. 01-09.

For the “Yes” response related to reconciliation of reciprocal account balances and activity with trading partners,
we compared the amounts, excluding intradepartmental activity and balances, in the Department’s general ledger
used to prepare the audited consolidated financial statements to such amounts in the Department’s final
FACTS I, and identified the following difference:

                                             Amount per the
                                              Department's        Amount per
  Reciprocal Category      SGL Account       General Ledger        FACTS I          Difference     Explanation
Interest Revenue          5310G                 119,711,083       119,690,503             20,580        A

We received the following explanation from the Department for the difference:

A.    The difference represents the Department's elimination entry submitted to Treasury as entity 14999999.

No additional procedures were performed with respect to management’s representation as to the reason for the
difference.




                                                         4                                             (Continued)
                                                                                                     Exhibit A

                                       U.S. Department of the Interior
                                        Agreed-Upon Procedures for
                                      Intragovernmental Transactions



For the “Yes” response related to disclosure of gross costs and earned revenue, we compared the amounts,
excluding intradepartmental activity and balances, in the Department’s audited financial statements, Footnote 19
Gross Cost and Earned Revenue by Budget Subfunction Classification, to such amounts in the Department’s
final FACTS I, and identified the following differences:

Gross Costs:

Budget Subfunction     Amount per         Amount per            Difference        Explanation
                        FACTS I           Footnote 19

     BFS 300                      -       1,814,142,000        (1,814,142,000)         A
     BFS 400                      -          11,449,000           (11,449,000)         A
     BFS 450                      -         286,503,000          (286,503,000)         A
     BFS 500                      -           5,374,000            (5,374,000)         A
     BFS 800                      -          82,144,000           (82,144,000)         A

Earned Revenue:

Budget Subfunction     Amount per         Amount per            Difference        Explanation
                        FACTS I           Footnote 19

     BFS 300                      -       2,114,575,000        (2,114,575,000)         A
     BFS 450                      -         202,700,000          (202,700,000)         A
     BFS 800                      -             295,000              (295,000)         A

We received the following explanation from the Department for the differences:

A.    The Department did not enter balances in the FACTS I Statement of Net Cost AGW intragovernmental
      section because Treasury did not populate this section.

No additional procedures were performed with respect to management’s representation as to the reason for the
differences.




                                                        5                                           (Continued)
                                                                                                    Exhibit A

                                        U.S. Department of the Interior
                                         Agreed-Upon Procedures for
                                       Intragovernmental Transactions



For the “Yes” response related to disclosure of intragovernmental balances and activity as RSI, we compared the
amounts, excluding intradepartmental activity and balances, in the Department’s audited financial statements,
Required Supplementary Information – Intragovernmental Transaction Disclosures, to such amounts in the
Department’s final FACTS I, and identified the following differences:

         Account            Amount per the      Amount per         Difference     Explanation
                           Department’s RSI      FACTS I

Accounts and Interest          390,747,000        390,899,570        (152,570)        C
Receivable
Accounts Payable                67,838,000         61,404,511        6,433,489        C
Accrued Payroll and            185,437,000        185,435,615            1,385        C
Benefits
Net Transfers                   69,200,000         69,138,103           61,897        C
Other Non-Exchange              87,293,000        130,840,414     (43,547,414)        A
Revenue
Imputed Financing              570,544,000        570,542,354            1,646        C
Sources
Sales of Goods and           2,317,570,000                    - 2,317,570,000         B
Services
Expenses                     2,246,302,000                    - 2,246,302,000         B


We received the following explanations from the Department for the differences:

A.    Other non-exchange revenue in the FACTS I Statement of Changes in Net Position AGW includes non-
      exchange revenue from Federal and public sources, while the other non-exchange revenue in the Required
      Supplementary Information section only includes revenue from Federal sources.

B.    The Department did not enter balances in the FACTS I Statement of Net Cost AGW intragovernmental
      section because Treasury did not populate this section.

C.    The Department indicated that they believe the difference is immaterial.

No additional procedures were performed with respect to management’s representations as to the reasons for the
differences.




                                                        6                                          (Continued)
                                                                                                     Exhibit A

                                       U.S. Department of the Interior
                                        Agreed-Upon Procedures for
                                      Intragovernmental Transactions



Procedure 3

Review the “Status of Disposition of Identified Differences” form on intragovernmental activity reported in
FACTS I (provided by the CFO). Comment indicating your agreement or disagreement, with the data provided
by the CFO.

Finding 3

We have read the “Status of Disposition of Identified Differences” form on intragovernmental activity reported
in FACTS I. We compared the information on the form to correspondence between the Department of the
Interior, Department of Energy, and OMB explaining the cause for the identified differences between the
Department of the Interior and the Department of Energy and found such information to be in agreement.
However, we did not receive supporting documentation for the disposition of a $462,452,687 difference with
trading partner 21 (Army) or for the disposition of a $1,127,957,847 difference with trading partner 47 (General
Services Administration). The Department indicated that they did not have access to supporting documentation
at the Army or General Services Administration.




                                                       7
